COCKLE

L ief E-Mail Address:
ega | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-303
UNITED STATES OF AMERICA,
Petitioner,

v.
JOSE LUIS VAELLO-MADERO
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of September, 2021, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE FOR THE PUERTO RICO HOUSE
OF REPRESENTATIVES IN SUPPORT OF RESPONDENT in the above entitled case. All parties required to be served
have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
EMIL RODRIGUEZ ESCUDERO
JORGE MARTINEZ LUCIANO
Counsel of Record
ML & RE LAW FIRM
Cobian’s Plaza — Suite 404
1607 Ponce de Leén Ave.
San Juan, P.R. 00909
jorge@mirelaw.com
emil@mlrelaw.com
(787) 999-2972

Subscribed and sworn to before me this 7th day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

    

Leos Oudiw-h, Chk

Affiant

 

/e WOTARY-State of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023

 

Notary Public 2
 

Attorneys for Petitioner

Brian H. Fletcher Acting Solicitor General 202-514-2217
Counsel of Record United States Department of Justice

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: United States of America

 

Attorneys for Respondent

Hermann Ferre Curtis, Mallet-Prevost, Colt and Mosle LLP 212-696-8871
Counsel of Record 101 Park Avenue
New York, NY 10178

hferre@curtis.com

Party name: Jose Luis Vaello-Madero

 

 
